APPENDIX - A

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
FIRST DISTRICT OFFICE

CAROLYN TAFT GROSBOLL
Clerk of the Court

September 28, 2020

(217) 782-2035
TDD: (217) 524-8132

160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Editha Rosario-Moore
Office of the State Appellate Defender, Third District
770 E. Etna Road
Ottawa, IL 61350-1014
In re:

People v. Lindsey
124289

Dear Editha Rosario-Moore:
The Supreme Court today entered the following order in the above-entitled cause:
Petition for rehearing denied.
Opinion modified upon denial of rehearing.
The mandate of this Court will issue to the Appellate Court and/or Circuit Court or other
agency on 11/02/2020.
Very truly yours,

Clerk of the Supreme Court

cc:

Appellate Court, Third District
Attorney General of Illinois - Criminal Division
Eldad Zvi Malamuth
Justin Andrew Nicolosi
Office of the State Appellate Defender, Third District
State's Attorney Rock Island County
State's Attorney's Appellate Prosecutor, Third District

A-1

APPENDIX - B

2020 IL 124289

IN THE
SUPREME COURT
OF
THE STATE OF ILLINOIS

(Docket No. 124289)
THE PEOPLE OF THE STATE OF ILLINOIS, Appellant, v.
JONATHAN LINDSEY, Appellee.

Opinion filed April 16, 2020.—Modified upon denial of rehearing September 28,
2020.

JUSTICE THEIS delivered the judgment of the court, with opinion.
Justices Kilbride, Garman, and Karmeier concurred in the judgment and
opinion.
Chief Justice Anne M. Burke dissented, with opinion, joined by Justice Neville.
Chief Justice Anne M. Burke and Justice Neville dissented upon denial of
rehearing, without opinion.
Justice Michael J. Burke took no part in the decision.

A-2

OPINION
¶1

The central issue in this case is whether a warrantless dog sniff outside the door
of the motel room where defendant Jonathan Lindsey was staying violated the
fourth amendment. The Rock Island County circuit court decided that it did not and
denied the defendant’s motion to suppress evidence. The defendant was convicted
of unlawful possession with intent to deliver a controlled substance within 1000
feet of a school (see 720 ILCS 570/407(b)(1) (West 2014)) and sentenced to seven
years’ imprisonment. The appellate court reversed and remanded, holding that the
trial court should have granted the defendant’s suppression motion. 2018 IL App
(3d) 150877. For the reasons that follow, we reverse the judgment of the appellate
court and affirm the judgment of the trial court.

¶2

BACKGROUND

¶3

Rock Island police officer Timothy Muehler received information from a
confidential informant that the defendant was selling narcotics from a room at a
local motel. A background check revealed that the defendant had an extensive
criminal record, including two 2012 arrests for the manufacture and delivery of
controlled substances. Another officer then contacted the defendant. The defendant
stated that he had narcotics for sale and agreed to meet the officer. At the meeting,
the officer and the defendant discussed drugs, but no deal occurred.

¶4

On April 27, 2014, Officer Muehler surveilled the motel and observed the
defendant drive away from the parking lot. Muehler knew that the defendant had a
suspended driver’s license, so he followed the defendant’s vehicle and called
dispatch for help. Officer Jacob Waddle eventually stopped the defendant. He was
arrested for driving with a suspended license (see 625 ILCS 5/6-303 (West 2014))
and transported to the Rock Island Police Department, where he signed a waiver of
rights form. According to Officer Muehler, the defendant stated that he was staying
in Room 129 at the motel. Another officer went there and spoke to the motel’s staff,
who advised that the defendant was staying in Room 130. Deputy Jason Pena of
the Rock Island County Sheriff’s Department and his K-9 partner Rio then went to
the motel. Rio conducted a “free air sniff” outside Room 130 and alerted to the odor
of narcotics. Officer Muehler submitted an affidavit outlining the investigation to a
trial judge, who issued a search warrant. Inside the room, police found 4.7 grams

-2-

A-3

of heroin in a dresser drawer, along with related items—a digital scale, scissors,
corner-cut plastic bags, and sandwich-sized plastic bags. The defendant later
admitted that the heroin was his, and he was charged with unlawful possession with
intent to deliver a controlled substance within 1000 feet of a school.
¶5

The defendant filed a motion to suppress evidence, arguing that the dog sniff
violated the fourth amendment. The trial court held a hearing on the motion. The
State called Sergeant Shawn Slavish of the Rock Island Police Department as its
first witness. Sergeant Slavish testified that he participated in the investigation and
learned the defendant was staying in Room 130 of the American Motor Inn.
According to Slavish, the motel “is shaped in a U or a horseshoe shape with another
building that sits at the entrance forming kind of a block there.” The door to Room
130 is “set back in a little alcove[,] and as you stepped into the alcove to the right
was Room 130.” Slavish added that the alcove itself had a door, but the area was
“open to the public, the door was propped open” on April 27.

¶6

Deputy Pena also testified the area was open to the public that day. There were
no locked doors that prevented access to the door of Room 130. On the day of the
dog sniff, Pena directed Rio to perform a free air sniff along the side of the motel.
Once Rio reached “the general area” outside Room 130, he changed his behavior,
sitting and lying down, which signaled an alert to the odor of narcotics. On crossexamination by defense counsel, Deputy Pena clarified that Rio “was
approximately at the door handle and the door seam” and “within inches of the
door” when he alerted. The State presented no further evidence.

¶7

The defendant called a single witness, Kylinn Ellis. Ellis testified that she was
the mother of the defendant’s son. On April 27, she “came down to see him” after
work. At some point that afternoon, the defendant was driving Ellis’s car with her
in the passenger seat, when he was stopped by police and arrested. The car was
impounded, and she walked back to the motel. As she approached the defendant’s
room, she noticed that “the curtains were moving, and you can like see somebody”
inside the room. On cross-examination by the State, Ellis clarified that she did not
see a person inside the room.

¶8

The trial court denied the defendant’s motion. The trial court relied upon United
States v. Roby, 122 F.3d 1120, 1125 (8th Cir. 1997), where a federal circuit court
of appeals held that a hotel guest may have had a reasonable expectation of privacy

-3-

A-4

in his room but not in the corridor outside, so a warrantless dog sniff in that corridor
did not violate the fourth amendment. The court concluded, “the motel room
corridor is a public place of accommodation, and, as such, [police] have the right
to walk that dog down there.” Following a stipulated bench trial, the defendant was
convicted and sentenced to seven years’ imprisonment and three years’ mandatory
supervised release. He appealed.
¶9

A divided appellate court panel reversed and remanded. 2018 IL App (3d)
150877. The appellate court majority rejected Roby and relied instead upon United
States v. Whitaker, 820 F.3d 849, 853-54 (7th Cir. 2016), where another federal
circuit court of appeals held that an apartment resident may have had a reasonable
expectation of privacy in the hallway outside his door, so a warrantless dog sniff in
that hallway violated the fourth amendment. 2018 IL App (3d) 150877, ¶¶ 23-24.
The majority explained that the defendant “had a justifiable expectation of privacy
because, until Pena focused the free air sniff on the motel door and seams to detect
the odor of drugs inside [his] motel room, the smell was undetectable outside of the
room.” Id. ¶ 24.

¶ 10

Having concluded that the warrantless dog sniff violated the fourth amendment,
the appellate court majority shifted its attention to the exclusionary rule. The
majority held that case law at the time was “quite sufficient to have apprised a
reasonably well-trained officer that the execution of the Pena dog sniff without a
warrant” was unconstitutional. Id. ¶ 36. The majority determined that the police
lacked an objectively reasonable good-faith belief that their conduct was lawful, so
the heroin ultimately recovered inside the defendant’s room should have been
suppressed. Id. ¶ 37. 1

¶ 11

Justice Schmidt dissented. He observed that, while some courts have
determined that dog sniffs of house and apartment doors constitute fourth
amendment searches, those cases have not been extended to hotel room doors
“because a hotel tenant possesses a reduced expectation of privacy.” Id. ¶ 51
(Schmidt, J., concurring in part and dissenting in part) (citing, inter alia, Roby, 122
F.3d 1120). He added, “Even assuming that the majority correctly determined that
1

The appellate court majority also vacated the drug assessment and street value fines and the
DNA analysis fee levied against the defendant. 2018 IL App (3d) 150877, ¶¶ 41, 45. Those fines
and fees are not at issue in this appeal.

-4-

A-5

the dog sniff in this case violated the fourth amendment (it did not), the good faith
exception to the exclusionary rule applies.” Id. ¶ 50.
¶ 12

This court allowed the State’s petition for leave to appeal. Ill. S. Ct. R. 315(a)
(eff. July 1, 2018).

¶ 13

ANALYSIS

¶ 14

Here, we must determine whether the appellate court erred in reversing the trial
court’s denial of the defendant’s motion to suppress evidence. In reviewing a ruling
on a suppression motion, we apply the familiar two-part standard of review
announced by the United States Supreme Court in Ornelas v. United States, 517
U.S. 690, 699 (1996). See People v. Luedemann, 222 Ill. 2d 530, 542-43 (2006).
Under that standard, we give deference to the factual findings of the trial court, and
we will reject those findings only if they are against the manifest weight of the
evidence. Id. We remain free, however, to decide the legal effect of those facts, and
we review de novo the trial court’s ultimate ruling on the motion. Id.

¶ 15

The fourth amendment to the United States Constitution provides:
“The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated, and
no Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.” U.S. Const., amend. IV.
The Illinois Constitution of 1970 provides:
“The people shall have the right to be secure in their persons, houses, papers
and other possessions against unreasonable searches, seizures, invasions of
privacy or interceptions of communications by eavesdropping devices or other
means. No warrant shall issue without probable cause, supported by affidavit
particularly describing the place to be searched and the persons or things to be
seized.” Ill. Const. 1970, art. I, § 6.

-5-

A-6

This court has long held that the search and seizure clause of our state constitution
stands in “limited lockstep” with its federal counterpart. People v. LeFlore, 2015
IL 116799, ¶ 16.
¶ 16

Those guarantees offer protection to people, not places (People v. Smith, 152
Ill. 2d 229, 244 (1992) (citing Katz v. United States, 389 U.S. 347, 351 (1967)), but
the extent to which they protect people depends upon where the people are
(Minnesota v. Carter, 525 U.S. 83, 88 (1998)). Our analysis begins and ends,
therefore, with the question of whether the defendant has established a legitimate
expectation of privacy in the place searched. People v. Johnson, 237 Ill. 2d 81, 90
(2010). In doing so, the defendant must point to a source outside the constitution—
namely, formal property interests or informal privacy interests. United States v.
Jones, 565 U.S. 400, 408 (2012); Rakas v. Illinois, 439 U.S. 128, 143 n.12 (1978)
(“Legitimation of expectations of privacy by law must have a source outside of the
Fourth Amendment, either by reference to concepts of real or personal property law
or to understandings that are recognized and permitted by society.”).

¶ 17

Those two types of sources roughly correspond to two complementary and
overlapping tracks of fourth amendment jurisprudence: a property-based approach,
exemplified by the United States Supreme Court’s opinion in Florida v. Jardines,
569 U.S. 1 (2013), and a privacy-based approach, exemplified by Justice Kagan’s
concurrence in that case and Justice Harlan’s concurrence in Katz. The government
violates the fourth amendment either by a warrantless intrusion onto a person’s
property (see id. at 5) or by a warrantless infringement of a person’s societally
recognized privacy (see id. at 12 (Kagan, J., concurring, joined by Ginsburg and
Sotomayor, JJ.) (citing Katz, 389 U.S. at 360 (Harlan, J., concurring))). As the
Supreme Court has explained, property rights are the baseline to which Katz adds.
Id. at 5 (majority opinion).

¶ 18

The parties focus almost solely on the privacy-based approach and only touch
upon the property-based approach in the interest of “completeness.” According to
the State, the defendant “properly disclaimed” in the appellate court any argument
that the unwarranted dog sniff violated the fourth amendment under Jardines. The
defendant concedes that “property rights are not the sole measure of Fourth
Amendment protections,” so a property-based approach is “not necessary” to
resolve this case. We disagree. If, as the State contends, the warrantless dog sniff

-6-

A-7

here did not violate the fourth amendment under the privacy-based approach, we
still must determine whether it violated the fourth amendment under the propertybased approach. Thus, we will address both approaches in turn.

¶ 19

Property-Based Approach

¶ 20

The property-based approach to the fourth amendment exclusively provided its
protections for much of our history. Id.; see Jones, 565 U.S. at 405 (“The text of
the Fourth Amendment reflects its close connection to property ***.”). When the
government obtains information by physically intruding on persons, houses, papers,
or effects without a warrant, an unconstitutional search occurs. Jardines, 569 U.S.
at 5 (citing Jones, 565 U.S. at 406 n.3).

¶ 21

In Jardines, the police received an unverified tip that the defendant was growing
marijuana inside his home. A month later, a joint surveillance team of federal drug
enforcement agents and local police officers descended on the house. After
watching the house for 15 minutes, two officers and a drug-detection dog entered
the defendant’s yard and approached his porch. The dog sniffed the base of the
defendant’s front door and alerted to the odor of narcotics. One of the officers
obtained a warrant and subsequently found marijuana plants inside the house. The
defendant was charged with drug trafficking. Before trial, he filed a motion to
suppress, arguing that the dog sniff was an unreasonable search. The trial court
agreed, but the appellate court did not. The state supreme court affirmed the trial
court’s decision, and the State sought review from the United States Supreme
Court.

¶ 22

The Court emphasized that “the home is first among equals” for fourth
amendment purposes. Id. at 6. The amendment’s core protection encompasses a
person’s right to escape inside the home and thereby to avoid unwanted government
intrusion. Id. (citing Silverman v. United States, 365 U.S. 505, 511 (1961)). That
right “would be of little practical value if the State’s agents could stand in a home’s
porch or side garden and trawl for evidence with impunity.” Id. Thus, the area
immediately surrounding and associated with the home—the so-called curtilage—
remains constitutionally indistinct from it. Id. The Court described the front porch
as “the classic exemplar” of the curtilage. Id. at 7. Because the officers had no

-7-

A-8

permission to plant themselves there in order to “engage in canine forensic
investigation” (id. at 9), the dog sniff was indeed a search (id. at 11-12).
¶ 23

This court dissected Jardines in People v. Burns, 2016 IL 118973. In Burns, the
Urbana Police Department received an anonymous tip that the defendant was
selling marijuana. Id. ¶ 4. A detective conducted a background check of the
defendant and learned that she had two prior arrests for marijuana possession. Id.
¶ 5. Several weeks later, the detective went to the defendant’s apartment building
to confirm her address. Id. ¶ 6. She lived in an apartment on the third floor of a
multiunit building. The building had two locked entrances, so its common areas
were not publicly accessible. Id. ¶ 3. The detective knocked on one entrance door,
and another tenant admitted him into the building. Id. ¶ 6. Eventually, the detective
was replaced by another police officer, who admitted a third officer and a drugdetection dog into the building. That officer and the dog went to the third floor. The
defendant’s apartment was located across a small landing from another apartment,
and the dog alerted to the odor of narcotics outside her door. Id. ¶ 7. The detective
then secured a warrant and found marijuana inside the apartment. Id. ¶¶ 8-9. She
was charged with unlawful possession of cannabis with intent to deliver. The
defendant filed a motion to suppress evidence, arguing that the dog sniff violated
the fourth amendment under Jardines. The trial court granted that motion, and the
State appealed. Id. ¶ 10. The appellate court affirmed the trial court’s decision,
holding that the warrantless dog sniff was unconstitutional, so the marijuana
subsequently found in the defendant’s apartment must be suppressed. Id. ¶ 13. The
State appealed again.

¶ 24

This court affirmed the lower courts’ decisions. Id. ¶ 81. We reviewed Jardines
in great detail (id. ¶¶ 20-30), then considered, and summarily rejected, each of the
State’s arguments. First, the court disagreed with the State that the landing in front
of the defendant’s apartment did not qualify as curtilage under Jardines because
the entrances were locked when the police attempted to enter the building and were
“clearly not open to the general public.” Id. ¶ 33. Second, the court disagreed with
the State that the landing did not qualify as curtilage under the four-part test of
United States v. Dunn, 480 U.S. 294, 301 (1987). Burns, 2016 IL 118973, ¶ 34. The
court observed that the landing was in close proximity to the apartment; the landing
and the apartment were both inside the building, whose entrances were locked; the
landing was used only by the defendant and her nearest neighbor; and the landing

-8-

A-9

could not be seen by people outside. Id. ¶¶ 35, 37. Third, the court disagreed with
the State that the boundaries of the landing were not easily determined: “The
boundary to the landing of defendant’s apartment is easily understood as curtilage”
because it is “a clearly marked area within a locked building with limited use and
restricted access.” Id. ¶ 39. Fourth, the court disagreed with the State that the
landing was not intimately associated with home activities, dismissing the State’s
final argument as a mere rehash of its unavailing Dunn-factors argument. Id. ¶ 40.
¶ 25

The court again highlighted the fact that the entrances to the defendant’s
apartment building were locked when the police attempted to enter, knowing that
the building was not publicly accessible. Id. ¶ 41. We noted, however, that “this
case is distinguishable from situations that involve police conduct in common areas
readily accessible to the public.” Id. Under Jardines, “when police entered
defendant’s locked apartment building at 3:20 a.m. with a drug-detection dog, their
investigation took place in a constitutionally protected area.” Id. ¶ 44. Because the
police did not have a warrant to conduct that search, it violated the fourth
amendment. Id.

¶ 26

More recently, this court stated that the distinction between locked and
unlocked buildings emphasized in Burns “does not create a difference.” People v.
Bonilla, 2018 IL 122484, ¶ 25. The court held that a common area hallway of an
apartment in an unlocked building is curtilage. Id. Consequently, a warrantless dog
sniff at the defendant’s apartment door in such a hallway violated the fourth
amendment. Id. ¶ 32.

¶ 27

Burns and Bonilla are simple and straightforward applications of Jardines. In
all three cases, the dog sniffs occurred outside the doors of the defendants’ homes.
As Jardines makes abundantly clear through repetition of the term, “home” is the
crux of the curtilage determination. If there is no home, there can be no
“constitutionally protected extension” of it. Jardines, 569 U.S. at 8. As the
defendant acknowledges, there are certain dwellings “where a traditional curtilage
concept and analysis do not apparently or readily apply.” We agree. The concept of
curtilage may be incongruent with respect to a place of temporary lodging because

-9-

A-10

the area around that place is not physically and psychologically linked to it (id. at
7) and does not belong to the person staying there (id. at 5-6). 2
¶ 28

The record in this case does not show that Room 130 was the defendant’s home.
According to Officer Muehler’s affidavit in support of a search warrant, a
confidential informant warned that the defendant was “selling narcotics from the
American Motor Inn.” Muehler did not specify the date of the tip. The defendant
stated that he was “staying” at the motel, and the motel’s staff stated that he was
“currently registered to room 130.” Sergeant Slavish and Ellis both confirmed in
their suppression hearing testimony that the defendant was “staying” at the motel,
but neither revealed the length of his stay. If the defendant was only a guest at the
motel for a day or a few days, it would be difficult to say that the room was his
home and, consequently, difficult to say that the alcove was its curtilage. The
defendant, who bore the burden of proof at the suppression hearing (see People v.
Brooks, 2017 IL 121413, ¶ 22), offered no evidence in this regard. That alone is
enough to decide the curtilage question against him and reject any property-based
fourth amendment claim.

¶ 29

Even if we assume that the defendant’s motel room was his home, the alcove
outside it was not curtilage under Dunn. Although the Supreme Court in Jardines
did not cite Dunn or mention its four-factor test for determining whether the area
searched is within the curtilage of a home, that test remains instructive. Burns, 2016
IL 118973, ¶ 87 (Garman, C.J., specially concurring). In Dunn, 480 U.S. at 301, the
Court stated:
“[C]urtilage questions should be resolved with particular reference to four
factors: the proximity of the area claimed to be curtilage to the home, whether
the area is included within an enclosure surrounding the home, the nature of the
uses to which the area is put, and the steps taken by the resident to protect the
area from observation by people passing by. [Citations.] We do not suggest that
combining these factors produces a finely tuned formula that, when
mechanically applied, yields a ‘correct’ answer to all extent-of-curtilage

2

We do not imply, however, that a hotel or motel room may never be a home or that the area
outside such a room may never be within its curtilage. That is a case-by-case factual determination.
As the defendant aptly notes, “a person residing in a motel long-term could indeed have curtilage
depending on the facts of the case.”

- 10 -

A-11

questions. Rather, these factors are useful analytical tools only to the degree
that, in any given case, they bear upon the centrally relevant consideration—
whether the area in question is so intimately tied to the home itself that it should
be placed under the home’s ‘umbrella’ of Fourth Amendment protection.”
See People v. Pitman, 211 Ill. 2d 502, 516 (2004) (“In determining whether a
particular area falls within a home’s curtilage, a court asks whether the area harbors
the intimate activities commonly associated with the sanctity of a person’s home
and the privacies of life.”). But see State v. Williams, 862 N.W.2d 831, 838 (N.D.
2015) (observing that the Dunn factors are “insufficient” to gauge whether a
condominium building hallway is curtilage).
¶ 30

Here, the alcove was in close proximity to Room 130 but also to Room 131.
The alcove was not within an enclosed area surrounding the room. It had a door,
which was closed in the pictures the defense counsel offered into evidence at the
suppression hearing but propped open when Deputy Pena and Rio arrived at the
motel. The alcove was not put to personal use by the defendant. He had no
ownership or possession of the alcove, only a license to use it. The alcove offered
a means of ingress and egress to the defendant and anyone visiting him, but also to
a guest staying in Room 131 and that person’s associates, as well as the motel’s
staff or service technicians charged with cleaning and maintaining both rooms.
Indeed, it was accessible to the public at any time. Further, the defendant took no
steps to shield it from observation by other motel guests or the public. Not only was
the door to the alcove open on April 27, but the defendant disclaimed any
connection to it when he misled police that he was staying in another room.

¶ 31

Under Dunn, the alcove was not within the curtilage of his motel room. See
United States v. Legall, 585 F. App’x 4, 5 (4th Cir. 2014) (per curiam) (applying
the Dunn factors and concluding “the common hallway of the hotel was not within
any curtilage of the hotel room”); State v. Foncette, 356 P.3d 328, 331 (Ariz. Ct.
App. 2015) (“Although in close proximity to a private area, the public access
hallway outside the door was not the type of area ‘to which the activity of home life
extends’ so as to qualify as curtilage of the hotel room.” (quoting Oliver v. United
States, 466 U.S. 170, 182 n.12 (1984))). Consequently, the warrantless dog sniff in
this case did not violate the fourth amendment under the property-based approach.
We must determine next whether it violated the fourth amendment under the

- 11 -

A-12

privacy-based approach. 3

¶ 32

Privacy-Based Approach

¶ 33

The privacy-based approach to the fourth amendment has its roots in Justice
Harlan’s short, but oft-referenced, concurrence in Katz, which “decoupled violation
of a person’s Fourth Amendment rights from trespassory violation of his property.”
Kyllo v. United States, 533 U.S. 27, 32 (2001). Justice Harlan summarized his
understanding of earlier cases: “[T]here is a twofold requirement, first that a person
have exhibited an actual (subjective) expectation of privacy and, second, that the
expectation be one that society is prepared to recognize as ‘reasonable.’ ” Katz, 389
U.S. at 361 (Harlan, J., concurring); see California v. Ciraolo, 476 U.S. 207, 21112 (1986) (stating that Katz posits a two-part inquiry into whether a person has
“manifested a subjective expectation of privacy” in the object of the challenged
search and whether that expectation is reasonable in light of “ ‘the personal and
societal values protected by the Fourth Amendment’ ” (quoting Oliver, 466 U.S. at
182-83)). When the government, even in the absence of a physical intrusion into a
constitutionally protected area, obtains information by invading a reasonable
expectation of privacy in persons, houses, papers, or effects without a warrant, an
unconstitutional search occurs. Kyllo, 533 U.S. at 33; Smith v. Maryland, 442 U.S.
735, 740 (1979).

¶ 34

In Jardines, Justice Kagan joined the Court’s opinion but took up the Katz
mantle in her concurrence, which Justices Ginsburg and Sotomayor joined. Justice
Kagan agreed with the Court that the police activity was a trespass on the
defendant’s property, but she asserted that it was also an invasion of his privacy.
Jardines, 569 U.S. at 13 (Kagan, J., concurring, joined by Ginsburg and Sotomayor,
JJ.). While the Court considered the case under “a property rubric,” Justice Kagan
“could just as happily have decided it” under a privacy one. Id. According to Justice
Kagan, “It is not surprising that in a case involving a search of a home, property
3

Neither Jardines nor Burns offers guidance on that question. In Jardines, 569 U.S. at 11, the
Court felt that it “need not decide whether the officers’ investigation of [the defendant’s] home
violated his expectation of privacy under Katz” because the property-based approach “keeps easy
cases easy.” And in Burns, 2016 IL 118973, ¶ 45, we observed that our “application of Jardines
makes it unnecessary to address the merits of whether use of the drug-detection dog violated
defendant’s reasonable expectation of privacy.”

- 12 -

A-13

concepts and privacy concepts should so align” because property law naturally
influences shared social understandings “of what places should be free from
governmental incursions.” Id. (citing Georgia v. Randolph, 547 U.S. 103, 111
(2006)). The defendant’s home was his property, as well as his most intimate and
familiar space, so a property analysis and a privacy analysis would run on similar
paths. Id. at 14.
¶ 35

Justice Kagan felt that the case could have been resolved on privacy grounds
alone after Kyllo. Id. In Kyllo, the Court held that police conducted a search when
they directed a thermal sensor to detect heat emanating from the defendant’s home,
even though they committed no trespass. Kyllo, 533 U.S. at 40. To Justice Kagan,
that firm and bright rule governed Jardines. The dog in Jardines, like the sensor in
Kyllo, was “ ‘a device that is not in general public use’ ” employed “ ‘to explore
details of the home that would previously have been unknowable without physical
intrusion.’ ” Jardines, 569 U.S. at 14 (Kagan, J., concurring, joined by Ginsburg
and Sotomayor, JJ.) (quoting Kyllo, 533 U.S. at 40). Both the sensor and the dog
effected searches for which a warrant was required. Id. at 14-15.

¶ 36

Justice Kagan’s concurrence was the primary support for the Seventh Circuit’s
decision in Whitaker, upon which the appellate court majority below heavily relied.
In Whitaker, the police received information from a confidential informant that a
person was dealing drugs at an apartment. Whitaker, 820 F.3d at 851. The property
manager of the apartment building signed a consent form authorizing police to
conduct a dog sniff of the building. A police officer and his dog proceeded to the
building, where the dog alerted to the presence of drugs at the door to the
defendant’s apartment. A subsequent search of the apartment pursuant to a warrant
revealed marijuana, cocaine, and heroin. Id. The defendant was charged with
possession with intent to deliver. Id. The defendant filed a motion to suppress,
which the trial court denied. He was convicted and sentenced. Id. at 851-52. He
appealed, insisting that the warrantless dog sniff violated the fourth amendment
under Jardines and Kyllo. Id. at 852.

¶ 37

The federal court of appeals reversed and remanded. Id. at 855. The appeals
court analyzed the case under the privacy rubric, holding that “[t]he use of a drugsniffing dog *** clearly invaded reasonable privacy expectations, as explained in
Justice Kagan’s concurring opinion in Jardines.” Id. at 852. A dog sniff in an

- 13 -

A-14

apartment hallway comes within the rule in Kyllo because a dog is a “sophisticated
sensing device not available to the general public” and because it detected
something—the presence of drugs—that would have been unknowable without
entering the apartment. Id. at 853. 4 Although the defendant did not have “a
reasonable expectation of complete privacy in his apartment hallway,” that did not
mean he had “no reasonable expectation of privacy against persons in the hallway
snooping into his apartment using sensitive devices not available to the general
public.” Id. The appeals court added that the defendant did not have the right to
exclude other people from the hallway, but he did have the right to expect certain
norms of behavior there: “Yes, other residents and their guests (and even their dogs)
can pass through the hallway. They are not entitled, though, to set up chairs and
have a party in the hallway right outside the door.” Id.
¶ 38

The defendant contends that Kyllo and Whitaker dictate the result here.
According to the defendant, those cases intimate that he had a reasonable
expectation of privacy inside his motel room, so that the warrantless dog sniff was
a search in violation of the fourth amendment. Certainly, the defendant is correct in
asserting that hotel or motel guests have a reasonable expectation of privacy inside
their rooms. See Stoner v. California, 376 U.S. 483, 490 (1964) (“[n]o less than a
tenant of a house, or the occupant of a room in a boarding house [citation], a guest
in a hotel room is entitled to constitutional protection against unreasonable searches
and seizures”); Hoffa v. United States, 385 U.S. 293, 301 (1966) (“[a] hotel room
can clearly be the object of Fourth Amendment protection as much as a home or an
office”); accord People v. Bankhead, 27 Ill. 2d 18, 23 (1963). But see United States
v. Agapito, 620 F.2d 324, 331 (2d Cir. 1980) (“the reasonable privacy expectations
in a hotel room differ from those in a residence”).

¶ 39

The only expectation of privacy that matters, however, is the expectation related
to the place searched. Contrary to the appellate court majority’s suggestion below,
4

Notably, the appeals court distinguished United States v. Place, 462 U.S. 696 (1983), where
the Supreme Court upheld a dog sniff of luggage at an airport, and Illinois v. Caballes, 543 U.S. 405
(2005), where the Court upheld a dog sniff of a vehicle during a traffic stop, because “[n]either case
implicated the Fourth Amendment’s core concern of protecting the privacy of the home.” Whitaker,
820 F.3d at 853. The Jardines Court similarly limited Place and Caballes to their factual settings
by stating that those cases held “canine inspection of luggage in an airport” and “canine inspection
of an automobile during a lawful traffic stop” did not violate the defendants’ reasonable expectation
of privacy under Katz. Jardines, 569 U.S. at 10.

- 14 -

A-15

Rio’s free air sniff did not detect the odor of narcotics inside Room 130 (see 2018
IL App (3d) 150877, ¶ 24) but rather outside. That is, Rio did not teleport through
the door and smell the air in the room; Rio smelled the air in the alcove. See Sanders
v. Commonwealth, 772 S.E.2d 15, 25 (Va. Ct. App. 2015) (“a dog does not detect
anything inside a [motel room], but merely detects the particulate odors that have
escaped from a [motel room],” so “the odors are no longer private, but instead are
intermingled with the public airspace” (internal quotation marks omitted)); cf.
United States v. Morales-Zamora, 914 F.2d 200, 205 (10th Cir. 1990) (“we find
that when the odor of narcotics escapes from the interior of a vehicle, society does
not recognize a reasonable privacy interest in the public airspace containing the
incriminating odor”); see generally, Illinois v. Caballes, 543 U.S. 405, 409 (2005)
(“the dog sniff was performed on the exterior of respondent’s car”); United States
v. Place, 462 U.S. 696, 707 (1983) (remarking that the dog sniff was performed on
“respondent’s luggage, which was located in a public place,” and not its contents).
The question becomes whether the defendant had an expectation of privacy there.
¶ 40

In determining whether a person has a reasonable expectation of privacy in a
place searched, we consider the person’s ownership or possessory interest in the
place, the person’s prior use of the place, the person’s exclusive control of the place
or ability to exclude others from it, and the person’s subjective expectation of
privacy in the place. Johnson, 237 Ill. 2d at 90 (citing People v. Sutherland, 223 Ill.
2d 187, 230 (2006)). That determination is fact-specific. See People v. Gill, 2018
IL App (3d) 150594, ¶ 96 (“[t]he question of whether a defendant has a reasonable
expectation of privacy depends on the totality of the circumstances,” which “will
vary from person to person and case to case”).

¶ 41

Here, the defendant had no reasonable expectation of privacy in the alcove
outside his room. He did not own the alcove. See Esser v. McIntyre, 267 Ill. App.
3d 611, 618 (1994) (“the hotel, not the guest, is the possessor of the real property
to which the guest and his guests have access”); Sanders, 772 S.E.2d at 24 (stating
that the defendant had a possessory interest in a motel room, “but as to the
walkways, his interest, like that of the other motel guests, was one of common, not
exclusive, use and access”). Consequently, he could not control who entered the
alcove or exclude people from it. The defendant was staying in Room 130, so he
presumably used the alcove for ingress and egress, but there is no evidence that he
used it in any other way.

- 15 -

A-16

¶ 42

Finally, there is no evidence that he had a subjective expectation of privacy in
the alcove. A guest’s expectation of privacy inside a motel room diminishes quickly
outside it. See People v. Eichelberger, 91 Ill. 2d 359, 366 (1982) (“[I]n contrast to
the occupant of a private dwelling who has the exclusive enjoyment of the land he
possesses immediately surrounding his home, the hotel occupant’s reasonable
expectations of privacy are reduced with regard to the area immediately adjoining
his room.”); see also Roby, 122 F.3d at 1125 (holding that a hotel guest had an
expectation of privacy in his room but that the expectation did not extend to the
corridor outside his room); United States v. Dockery, 738 F. App’x 762, 764 (3d
Cir. 2018) (holding that the defendant did not have a “reasonable expectation of
privacy in [the] common area of the motel, which was open to guests and the public
alike”); United States v. Jackson, 588 F.2d 1046, 1052 (5th Cir. 1979) (stating that
a motel guest’s fourth amendment rights do not evaporate, but “the extent of the
privacy he is entitled to reasonably expect may very well diminish” because “a
transient occupant of a motel must share corridors, sidewalks, yards, and trees with
the other occupants”); United States v. Marlar, 828 F. Supp. 415, 419 (N.D. Miss.
1993) (holding that a dog sniff of an exterior motel room door did not intrude upon
the defendant’s reasonable expectation of privacy); Sanders, 772 S.E.2d at 24
(holding that the defendant had a reasonable expectation of privacy inside his room
but “no expectation of privacy in the sights, sounds, and smells detectible without
unconstitutional intrusion from outside” the room). The defendant undoubtedly
wanted his illegal activity to remain private. “The test of legitimacy is not whether
the individual chooses to conceal assertedly ‘private’ activity” but “whether the
government’s intrusion infringes upon the personal and societal values protected
by the Fourth Amendment.” Oliver, 466 U.S. at 182-83. When the defendant’s
expectation was but a sliver of hope that the odor of narcotics would not be sensed
by a drug-detection dog in the alcove outside his motel room, that expectation is
not reasonable and not subject to fourth amendment protection.

¶ 43

CONCLUSION

¶ 44

For the reasons that we have stated, the judgment of the appellate court is
reversed, and the judgment of the circuit court is affirmed. The reversal of the
appellate court is without prejudice as to defendant filing a motion in the circuit
court for correction of fines and fees under Illinois Supreme Court Rule 472 (eff.

- 16 -

A-17

May 17, 2019).

¶ 45

Appellate court judgment reversed.

¶ 46

Circuit court judgment affirmed.

¶ 47

CHIEF JUSTICE ANNE M. BURKE, dissenting:

¶ 48

The majority holds that a police officer’s use of a trained drug-detection dog to
sniff at the door of defendant’s motel room did not constitute a search of the room
within the meaning of the fourth amendment. Supra ¶ 39. Instead, it holds that the
dog sniff was merely a search of the alcove outside the room. Supra ¶¶ 40-42. This
holding cannot be reconciled with the clear precedent of the United States Supreme
Court. I therefore respectfully dissent.

¶ 49

ANALYSIS

¶ 50

Police in Rock Island, Illinois, used a trained drug-detection dog to conduct a
sniff at defendant’s motel room door. The dog alerted to the presence of drugs
inside the room, and based on that alert, police obtained a search warrant. Heroin
was discovered inside the motel room, and defendant was thereafter convicted of
unlawful possession with intent to deliver a controlled substance. Before this court,
defendant contends that the dog sniff was an unreasonable search of his motel room
in violation of the fourth amendment.

¶ 51

The fourth amendment, which applies to the states through incorporation by the
fourteenth amendment, protects “[t]he right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable searches and seizures.”
U.S. Const., amend. IV. A search occurs within the meaning of the fourth
amendment “when an expectation of privacy that society is prepared to consider
reasonable is infringed.” United States v. Jacobsen, 466 U.S. 109, 113 (1984).
Determining whether a reasonable expectation of privacy exists is a two-part
inquiry. Katz v. United States, 389 U.S. 347, 361 (1967) (Harlan, J., concurring).
First, the person must have exhibited a subjective expectation of privacy in the

- 17 -

A-18

place searched. Second, the expectation must be one that society is prepared to
recognize as reasonable. Id.
¶ 52

In this case, the majority concedes that defendant had a reasonable expectation
of privacy inside his motel room. Supra ¶ 38. However, the majority concludes this
fact is of no moment. The majority explains that the only expectation of privacy
that matters “is the expectation related to the place searched.” Supra ¶ 39. The
majority then states that the dog in this case “did not teleport through the door and
smell the air in the room; [it] smelled the air in the alcove.” Supra ¶ 39. From this,
the majority concludes that the police did not conduct a search of the interior of
defendant’s motel room at all but, instead, searched only the alcove outside the
room. Supra ¶ 39. I disagree. The majority holds that the dog sniff would only have
been a search of defendant’s motel room if the dog had been on the other side of
the door. In other words, according to the majority, a search does not occur under
the fourth amendment unless a government agent or monitoring device gathering
information physically intrudes into a space in which a person has a reasonable
expectation of privacy. This reasoning is directly contrary to United States Supreme
Court precedent.

¶ 53

The Supreme Court has repeatedly held that a government agent’s use of a
monitoring device to obtain information about the interior of an enclosed space in
which a person has a reasonable expectation of privacy constitutes a search under
the fourth amendment—even if the monitoring device collecting the information is
itself located outside the enclosed space. The Court has applied this rule to (1) an
eavesdropping device attached to the outside of a public telephone booth (Katz, 389
U.S. at 353), (2) a tracking device collecting information from a “beeper” attached
to a can of chemicals inside a house (United States v. Karo, 468 U.S. 705, 714-16
(1984)), (3) a thermal imaging device used to measure the amount of heat
emanating from a house (Kyllo v. United States, 533 U.S. 27, 34-35 (2001)), and,
of particular relevance here, (4) a drug-detection dog sniff on the front porch of a
house (Florida v. Jardines, 569 U.S. 1 (2013)).

¶ 54

Underlying each of these decisions is the fundamental principle that “the Fourth
Amendment protects people, not places.” Katz, 389 U.S. at 351. That is, the fourth
amendment protects a person’s right to a reasonable expectation of privacy, not just
the right to be free from unreasonable physical intrusion. Thus, the collection of

- 18 -

A-19

information by the government can amount to a search under the fourth amendment
even where the government does not physically intrude into the place being
searched. Id. at 353.
¶ 55

For instance, in Karo, government agents used a tracking device to monitor a
beeper signal emanating from a house from a separate location. Karo, 468 U.S. at
714. Neither the agents nor the tracking device ever crossed the threshold of the
curtilage surrounding the home. Nevertheless, the Supreme Court held that the
monitoring of the beeper was a violation of the defendant’s reasonable expectation
of privacy and, thus, constituted a search of the house, because it “reveal[ed] a
critical fact about the interior of the premises that the Government [wa]s extremely
interested in knowing and that it could not have otherwise obtained without a
warrant.” Id. at 715.

¶ 56

Similarly, in Kyllo, a thermal imaging device was placed inside a vehicle parked
across the street from the home that the government agents were monitoring. Kyllo,
533 U.S. at 30. The government argued that the thermal imaging was permissible
under the fourth amendment because it detected only heat radiating from the
external surface of the house. Id. at 35. The Court rejected this argument, finding
that the thermal imager infringed upon a reasonable expectation of privacy by
detecting information about the inside of the home that could not otherwise have
been obtained without entering inside. Id. at 40. The Court explained:
“just as a thermal imager captures only heat emanating from a house, so also a
powerful directional microphone picks up only sound emanating from a
house—and a satellite capable of scanning from many miles away would pick
up only visible light emanating from a house. We rejected such a mechanical
interpretation of the Fourth Amendment in Katz, where the eavesdropping
device picked up only sound waves that reached the exterior of the phone booth.
Reversing that approach would leave the homeowner at the mercy of advancing
technology—including imaging technology that could discern all human
activity in the home. While the technology used in the present case was
relatively crude, the rule we adopt must take account of more sophisticated
systems that are already in use or in development.” Id. at 35-36.

¶ 57

The Supreme Court has also applied these principles to dog sniffs. In Jardines,
police used a drug-detection dog to conduct a sniff on the front porch of the house

- 19 -

A-20

in which the defendant resided. Jardines, 569 U.S. at 4. Although the majority
opinion and the concurrence in that case relied on different rationales, 5 the five
justices in the majority agreed that the dog sniff gathered information about the
inside of the house, not information about the porch on which the dog sniff took
place. Id. at 3, 5 (finding the officers used the dog sniff to investigate the contents
of the home); id. at 12 (Kagan, J., concurring, joined by Ginsburg and Sotomayor,
JJ.) (concluding that the purpose of the dog sniff was to detect things inside the
home that the officers could not perceive unassisted). Indeed, no justice held, or
even suggested, that the dog sniff was not a search of the house’s interior because
the dog had only smelled the air on the porch. See also, e.g., Florida v. Harris, 568
U.S. 237, 248 (2013) (the sole purpose of a dog sniff is to gather information about
the contents of a private enclosed space); United States v. Whitaker, 820 F.3d 849,
853 (7th Cir. 2016) (same); United States v. Thomas, 757 F.2d 1359, 1366-67 (2d
Cir. 1985) (same).
¶ 58

To be sure, the government’s gathering of information about the interior of an
enclosed space may not amount to a search if that information is in plain view or
“plain smell.” However, a drug-detection dog is only necessary in those situations
where nothing is in “plain smell.” A trained police dog is as much a sophisticated
monitoring “device” as was the eavesdropping device in Katz, the tracking device
in Karo, or the thermal imager in Kyllo. As Justice Kagan explained in Jardines,
“drug-detection dogs are highly trained tools of law enforcement, geared to respond
in distinctive ways to specific scents so as to convey clear and reliable information
to their human partners. [Citation.] They are to the poodle down the street as highpowered binoculars are to a piece of plain glass.” Jardines, 569 U.S. at 12-13
(Kagan, J., concurring, joined by Ginsburg and Sotomayor, JJ.). Just as the police
are not entitled to stand on a person’s front porch and peer inside the window with

5

The majority opinion in Jardines, authored by Justice Scalia, held that the dog sniff constituted
a search because the police officers physically entered and occupied the house’s curtilage, which
enjoys protection as part of the home itself, in order to engage in conduct not explicitly or implicitly
permitted by the defendant. Jardines, 569 U.S. at 5-6. The concurring justices joined in this
reasoning but argued that the dog sniff was a search for the additional reason that it violated the
defendant’s reasonable expectation of privacy in the home. Id. at 12 (Kagan, J., concurring, joined
by Ginsburg and Sotomayor, JJ.).

- 20 -

A-21

high-powered binoculars, they also are not entitled to bring a drug-sniffing dog to
a house in order to detect objects “not in plain view (or plain smell).” Id. at 13.
¶ 59

The United States Court of Appeals for the Seventh Circuit applied the
foregoing decisions to a dog sniff at the door of an apartment in Whitaker, 820 F.3d
at 853. In that case, the Seventh Circuit stated “[t]here is little doubt that a highly
trained drug-detecting dog is a ‘super-sensitive instrument’ under Kyllo.” Id. at 853
n.1 (citing Jardines, 569 U.S. at 13 (Kagan, J., concurring, joined by Ginsburg and
Sotomayor, JJ.)). The court then held that the dog sniff violated the defendant’s
reasonable expectation of privacy “against persons in the hallway snooping into his
apartment using sensitive devices not available to the general public.” (Emphasis
added.) Id. at 853. For the same reason that a police officer may not put a
stethoscope to an apartment door and listen to the conversation inside, the court
reasoned, an officer is not entitled to “park a sophisticated drug-sniffing dog outside
an apartment door, at least without a warrant.” Id. at 853-54.

¶ 60

Supreme Court precedent leaves no question that a government agent’s use of
a sophisticated monitoring device to obtain information about the interior of an
enclosed space in which a person has a reasonable expectation of privacy
constitutes a search under the fourth amendment. And this remains true even if the
monitoring device collecting the information is itself located outside the enclosed
space. In this case, it is clear the dog sniff collected information about the interior
of defendant’s motel room, an area in which defendant had a reasonable expectation
of privacy. Deputy Jason Pena testified that he and his K-9 partner were asked to
perform a “free air sniff” of room 130 of the motel. He testified that the dog alerted
to the odor of narcotics at the door to room 130 by lying down in front of the door.
According to Deputy Pena’s testimony, the dog was positioned “at the door handle
and the door seam” when he alerted. He testified that the dog “got within inches of
the door” to room 130.

¶ 61

Following the positive alert, the police department applied for a search warrant
in the circuit court. The complaint for search warrant alleged that police had
probable and reasonable grounds to believe that defendant was in possession of
controlled substances and/or other illicit items at his
“residence on the premises located at 4300-11th St. room #130 Rock Island,
Rock Island County, Illinois being a tan with blue trim, single story, multi-unit

- 21 -

A-22

hotel complex with room #130 being a single unit of the multi-unit complex
known as American Motor Inn with the numbers ‘130’ affixed to the west side
of the south-facing door.”
An affidavit attached to the complaint alleged, in part, that “Rock Island County
Deputy Pena and his K-9 partner conducted a free air sniff of 4300-11th St. room
#130 with a positive alert.” According to the affidavit, defendant subsequently
admitted to police that he was currently staying in room 130 at the American Motor
Inn. The court signed the search warrant. Police then searched the interior of room
130, where they found a quantity of what was later determined to be heroin, along
with United States currency and alleged drug paraphernalia. Based on the discovery
of these items, defendant was charged with unlawful possession with intent to
deliver a controlled substance and was later convicted of that charge at a bench trial.
¶ 62

The police in this case used a monitoring “device” not in general public use, a
trained police drug-detection dog, to obtain information that defendant was
possessing illegal drugs inside his motel room. The purpose of the dog sniff was to
provide information about what was inside the room, not what was in the alcove.
We know this because the police were directed to obtain a free air sniff of Room
130, not the alcove outside Room 130. Moreover, the police used the evidence of
the dog’s positive response to establish probable cause for a warrant to search the
inside of the motel room. They did not seek a search warrant for the alcove but for
the room. If the dog was merely detecting odors in the alcove, as the majority
concludes, then it was not possible that the canine alert established sufficient
evidence to secure a warrant to search the room. The majority fails to explain this
discrepancy. Without question, the dog sniff collected information about the
interior of defendant’s motel room, a space in which the majority concedes
defendant had a reasonable expectation of privacy. The dog sniff was therefore a
search of the room.

¶ 63

The majority makes no attempt to explain why the Supreme Court’s decisions
in Katz, Karo, Kyllo, and Jardines have no application here. Nor does the majority
make any attempt to explain why the Seventh Circuit’s decision in Whitaker is
unpersuasive. Instead, the majority relies almost entirely on an opinion by the
intermediate Virginia Court of Appeals, Sanders v. Commonwealth, 772 S.E.2d 15
(Va. Ct. App. 2015). Supra ¶ 39. Like the majority here, the court in that case held

- 22 -

A-23

that a dog sniff at a motel room door did not detect anything inside the room but
merely detected the odor particles that escaped from the room and that, thus, no
search occurred. Sanders, 772 S.E.2d at 25. This analysis is deeply flawed.
¶ 64

Just as the uses of the eavesdropping device in Katz, the tracking device in
Karo, the thermal imager in Kyllo, and the dog sniff in Jardines all constituted
searches under the fourth amendment because they gathered formation from an area
in which a person had a reasonable expectation of privacy, so too did the
warrantless dog sniff in this case. The conclusion by Sanders and the majority, that
a dog sniff at a motel room door gathers no information about the room’s interior
and therefore is not a search of the room itself, is simply wrong.

¶ 65

In support of its conclusion that the dog sniff was not a search of defendant’s
motel room, the majority also cites cases addressing the dog sniff of a vehicle
during a lawful traffic stop or a sniff of luggage at an airport. Supra ¶ 39 (citing
Illinois v. Caballes, 543 U.S. 405 (2005), United States v. Place, 462 U.S. 696
(1983), and United States v. Morales-Zamora, 914 F.2d 200 (10th Cir. 1990)).
However, the majority mischaracterizes these cases as finding that the dog sniffs
gathered information only about the exterior of the vehicle or luggage. This is
incorrect. The entire point of the dog sniff is to gather information about the interior
of an enclosed space. See Caballes, 543 U.S. at 410 (holding the dog sniff was
conducted to detect and locate contraband inside the car); Place, 462 U.S. at 707
(holding the dog sniff revealed information about the luggage’s contents, i.e.,
whether contraband was present inside the luggage).

¶ 66

I would find that the free-air dog sniff in this case constituted a warrantless
search of the motel room in violation of defendant’s fourth amendment rights.
Without the evidence of the positive dog sniff alert, there was insufficient evidence
in the complaint and affidavit for a search warrant to support a finding of probable
cause. The exclusionary rule prohibits the introduction into evidence of the
products of unreasonable searches and seizures. Mapp v. Ohio, 367 U.S. 643, 655
(1961). Therefore, the evidence resulting from the search of defendant’s motel
room should have been suppressed as fruit of the poisonous tree. See People v.
Henderson, 2013 IL 114040, ¶ 33.

¶ 67

Finally, I express no opinion on that part of the majority opinion holding that
no search occurred under the property-based approach. Supra ¶¶ 19-31. This

- 23 -

A-24

analysis is unnecessary to determine that a fourth amendment search occurred in
this case.
¶ 68

For the foregoing reasons, I respectfully dissent.

¶ 69

JUSTICE NEVILLE joins in this dissent.

¶ 70

JUSTICE MICHAEL J. BURKE took no part in the consideration or decision
of this case.

- 24 -

A-25

APPENDIX - C

2018 IL App (3d) 150877
Opinion filed October 30, 2018
____________________________________________________________________________
IN THE
APPELLATE COURT OF ILLINOIS
THIRD DISTRICT
2018
THE PEOPLE OF THE STATE OF ILLINOIS, )
)
Plaintiff-Appellee,
)
)
v.
)
)
JONATHAN LINDSEY,
)
)
Defendant-Appellant.
)
)

Appeal from the Circuit Court
of the 14th Judicial Circuit,
Rock Island County, Illinois.
Appeal No. 3-15-0877
Circuit No. 15-CF-290
The Honorable
Michael F. Meersman,
Judge, presiding.

___________________________________________________________________________
JUSTICE McDADE delivered the judgment of the court, with opinion.
Justice O’Brien concurred in the judgment and opinion.
Justice Schmidt concurred in part and dissented in part, with opinion.
____________________________________________________________________________
OPINION
¶1

In April 2014, the police used a trained drug-detection dog to conduct a free air sniff of
the door handle and seams of defendant Jonathan Lindsey’s motel room. The dog alerted to the
presence of drugs inside the room, and the police obtained a search warrant. During their search,
they found 4.7 grams of heroin, and Lindsey was charged with unlawful possession with intent to
deliver a controlled substance while being within 1000 feet of a school. Lindsey filed a motion to
suppress evidence, arguing that the dog sniff violated his fourth amendment rights. The trial
court denied the motion. Ultimately, the court found Lindsey guilty and entered a judgment of

A-26

conviction and a separate second judgment ordering Lindsey to pay a $3000 drug assessment fee,
a $500 drug street value fine, and a $250 DNA analysis fee and to submit a DNA sample.
Lindsey appealed, arguing that (1) the trial court erred when it denied his motion to suppress
evidence and (2) this court should vacate his fees and fine. We reverse and remand.
¶2
¶3

FACTS
On April 27, 2014, Lindsey was arrested for driving while his license was suspended.
While Lindsey was in custody, he told police he was staying in a motel room at American Motor
Inn. He did not give the officers consent to search the room. Rock Island County sheriff deputy
Jason Pena arrived at the American Motor Inn with a drug-detection dog and performed a free air
sniff on the exterior of Lindsey’s motel room door. The dog alerted to the presence of drugs in
the room. Rock Island Police Department Detective Timothy Muehler obtained a search warrant
and found 4.7 grams of a powdery substance later determined to be heroin. After the search,
Lindsey admitted that he possessed the heroin. Lindsey was charged with one count of unlawful
possession with intent to deliver a controlled substance while being within 1000 feet of a school
(Class X felony).

¶4

In July 2015, Lindsey filed a motion to suppress evidence. In the motion, he argued that
the dog sniff violated his fourth amendment rights because it constituted an unreasonable search
of the corridor of his motel room. He, therefore, claimed that any evidence seized and any
statements made to the officers subsequent to the search should be suppressed.

¶5

A hearing on the motion was held in September 2015. Rock Island Police Department
Sergeant Shawn Slavish testified that a dog sniff was conducted on the door of room 130 at the
American Motor Inn. He explained that “the door itself set back in a little alcove and as you
stepped into the alcove to the right was Room 130 and I believe across the hall to that would be
2
A-27

Room 131.” The door to the alcove was propped open and the area was open to the public. Pena
informed Slavish that the dog had alerted the presence of drugs at the door. Afterward, the
officers obtained a search warrant and searched the room.
¶6

Officer Pena testified that, on April 27, the Rock Island Police Department requested him
to conduct a free air sniff of motel room 130. During the dog sniff, Pena explained,
“I let him off lead and basically had him go to that side of the
building actually checking for free air sniffs alongside that
building. Once you reach Room 130, he changed his behavior,
alerting to the odor of narcotics. In this particular instance what he
did is he came up around the door handle and its seams and he—an
alert would be that he would actually sit and lay down, which he
did, indicating that he is in the odor of narcotics.”
The dog was “within inches” of the door when he sniffed the handle and seams. The dog also
searched the general area around the room but did not alert the officer about the presence of
drugs until he reached room 130.

¶7

Kylinn Ellis testified that Lindsey was her son’s father. On April 27, Ellis was in the
passenger seat of her car while Lindsey was driving. The police pulled the car over, arrested
Lindsey for driving without a license, and took possession of the car. Afterward, Ellis walked to
American Motor Inn to charge her phone in Lindsey’s motel room. When she arrived, she saw a
black Suburban with tinted windows in front of the motel. She also believed someone was in the
motel room because “the curtains were moving, and you can see like somebody in there” but she
did not actually see a person in the room. She did not know if anyone besides Lindsey had stayed

3
A-28

in the motel room but she had seen clothes that were not Lindsey’s in the room. As she walked
up to the motel room, she was stopped by a detective who told her she could not enter the room.
¶8

The trial court did not find Ellis’s testimony that she believed someone was in the motel
room after Lindsey was arrested credible because she had testified that she did not see a person
in the room and there could have been other causes, such as an air conditioning or heating unit,
for the movement of the curtains. It also stated that the police had a right to bar Ellis from the
motel room to secure the scene. Relying on the Eighth Circuit’s decision in United States v.

Roby , 122 F.3d 1120 (8th Cir. 1997), the court determined that Lindsey did not have a
reasonable expectation of privacy in the corridor of his motel room because, unlike an apartment
or house, the corridor of a motel room “was a public place of accommodation, and it was a
public access area.” The trial judge explained that there were no Illinois cases that addressed this
issue, and although he agreed with some of the points discussed in the Roby dissent, he was not
going to create new case law. Ultimately, the court denied the motion to suppress.
¶9

In October 2015, a stipulated bench trial was held. The court found Lindsey guilty and
sentenced him to seven years’ imprisonment and three years of mandatory supervised release. At
sentencing, the court commented on his fines and fees, stating “I note that there’s still monies
owing there. The clerk is to take all the monies that is showing [sic ] owing in these cases and
reduce everything to judgment, including the costs here, because obviously, he doesn’t have the
ability to pay any of them and it’s just silly to keep these files open just for money issues in
relation to that.”

¶ 10

In November 2015, the court entered two separate judgments. The first judgment did not
list any fines or fees. The second judgment ordered Lindsey to pay a $3000 drug assessment and
a $500 drug street value fine. It also ordered him to submit a specimen of his blood, saliva, or
4
A-29

other tissue and pay a $250 DNA analysis fee. The Illinois State Police DNA indexing lab
system shows that Lindsey had submitted a swab sample on October 16, 2012. Lindsey appealed
both his conviction and the imposition of fines and fees.
¶ 11

ANALYSIS

¶ 12

I. Fourth Amendment

¶ 13

A. Reasonable Expectation of Privacy

¶ 14

Lindsey argues that the trial court’s denial of his motion to suppress evidence was error
because the police officer’s use of a drug-detection dog near his motel room door constituted a
warrantless search and, therefore, violated his fourth amendment rights. He claims that case law
established that a guest in a motel room is constitutionally protected under the fourth amendment
and that this rule also applies to his motel door, which is a part of the structure of the motel
room. He also alleges that, pursuant to Kyllo v. United States , 533 U.S. 27 (2001), the dog sniff
violated his fourth amendment rights because a drug-detection dog was used to explore details of
the motel room not previously discernible without physical intrusion.

¶ 15

To begin, Lindsey references Stoner v. California , 376 U.S. 483 (1964), and People v.

Eichelberger , 91 Ill. 2d 359 (1982), to support his argument that a guest in a motel room is
entitled to constitutional protections under the fourth amendment. In Stoner , the United States
Supreme Court established that “[n]o less than a tenant of a house, or the occupant of a room in a
boarding house, [citation], a guest in a hotel room is entitled to constitutional protections against
unreasonable searches and seizures.” Stoner , 376 U.S. at 490.
¶ 16

Our supreme court in Eichelberger concluded that a hotel occupant’s reasonable
expectation of privacy is reduced with regard to the area immediately adjoining the room and
cites United States v. Burns , 624 F.2d 95 (10th Cir. 1980), and United States v. Agapito , 620
5
A-30

F.2d 324 (2nd Cir. 1980), to support its reasoning. In Burns , the Tenth Circuit stated that, in the
context of conversation,
“[m]otel occupants possess the justifiable expectation that if their
conversation is conducted in a manner undetectable outside their
room by the electronically unaided ear, that it will go
unintercepted. Contrarily, to the extent they converse in a fashion
insensitive to the public, or semipublic, nature of walkways
adjoining such rooms, reasonable expectations of privacy are
correspondingly lessened.” Burns , 624 F.2d at 100.
¶ 17

In Agapito , the Second Circuit stated that a person has a different expectation of privacy
in the corridor of a hotel room than in the curtilage of a private residence. The court explained:
“ ‘[D]espite the fact that an individual’s Fourth Amendment rights
do not evaporate when he rents a motel room, the extent of privacy
he is entitled to reasonably expect may very well diminish. For
although a motel room shares many of the attributes of privacy of a
home, it also possesses many features which distinguish it from a
private residence: “A private home is quite different from a place
of business or a motel cabin. A home owner or tenant has the
exclusive enjoyment of his home, his garage, his barn or other
buildings, and also the area under his home. But a transient
occupant of a motel must share corridors, sidewalks, yards, and
trees with the other occupants. Granted that a tenant has standing
to protect the room he occupies, there is nevertheless an element of
6
A-31

public or shared property in motel surroundings that is entirely
lacking in the enjoyment of one’s home.” ’ ” Agapito , 620 F.2d at
331 (quoting United States v. Jackson , 588 F.2d 1046, 1052 (5th
Cir. 1979), quoting Marullo v. United States , 328 F.2d 361, 363
(5th Cir. 1964)).
¶ 18

Lindsey also cites multiple cases with varying fact patterns to support the proposition that
the use of a drug-sniffing dog in the common area of a motel constitutes a fourth amendment
search. In Florida v. Jardines , 569 U.S. 1, 3-4 (2013), the police conducted a dog sniff on the
front porch of Jardines’s private home. When the dog sniffed the front door, he gave a positive
response for drugs, and the police obtained a search warrant. Id. at 4. The officers found
marijuana during the search, and Jardines was charged with trafficking. Id. Our Supreme Court
stated that the curtilage, or area immediately surrounding and associated with the home, was the
“constitutionally protected extension” of the home and determined that Jardines’s front porch
was considered curtilage. Id. at 6-8. It also found that, although a visitor would have an implied
license to approach the home for a brief moment, a resident does not give a police officer a
“customary invitation” to use a trained police dog to investigate the area to find incriminating
evidence. Id. at 8-9. The court declined to discuss whether the dog sniff violated Jardines’s
reasonable expectation of privacy. Id. at 11 (“The Katz [v. United States , 389 U.S. 347 (1967)]
reasonable-expectations test has been added to , not substituted for , the traditional property-based
understanding of the Fourth Amendment, and so is unnecessary to consider when the
government gains evidence by physically intruding on constitutionally protected areas.”
(Emphases in original and internal quotation marks omitted.)).

7
A-32

¶ 19

Justice Kagan concurred, stating that if the case had reviewed Jardines’s reasonable
expectation of privacy, the Court’s decision in Kyllo , would provide guidance. Id. at 14 (Kagan,
J., concurring, joined by Ginsburg and Sotomayor, JJ.). In Kyllo , wherein the Court held that the
police officers’ use of a thermal-imaging device to detect heat from a private home constituted a
search, the Court established that “ ‘Where, as here, the Government uses a device that is not in
general public use, to explore details of the home that would previously have been unknowable
without physical intrusion, the surveillance is a “search” and is presumptively unreasonable
without a warrant.’ ” Id. at 14 (quoting Kyllo , 533 U.S. 27 at 40). Justice Kagan opined that the
police officers conducted a search because the officers used a trained drug-detection dog, or a
“device that is not in general public use,” to explore details of Jardines’s home they would not
have otherwise discovered without entering the home. Id. at 14-15.

¶ 20

In United States v. Whitaker , 820 F.3d 849, 850 (7th Cir. 2016), police officers obtained
permission from an apartment manager to conduct a dog sniff in a locked, shared hallway of an
apartment building. The dog alerted the presence of drugs at Whitaker’s apartment. Id. The
officers obtained a search warrant, found incriminating evidence, and charged Whitaker with
various drug and firearm offenses. Id. On appeal, Whitaker argued that the use of a drugdetection dog violated his privacy interests under Kyllo . Id. at 852. The Seventh Circuit
determined that, under the Kyllo rule, a “trained drug-sniffing dog is a sophisticated sensing
device not available to the general public.” Id. at 853. “The dog here detected something (the
presence of drugs) that otherwise would have been unknowable without entering the apartment.”

Id. The court noted that Whitaker did not have “complete” reasonable expectation of privacy in
his apartment hallway. Id. However, “Whitaker’s lack of a reasonable expectation of complete
privacy in the hallway does not also mean that he had no reasonable expectation of privacy

8
A-33

against persons in the hallway snooping into his apartment using sensitive devices not available
to the general public.” Id. The court also stated:
“Whitaker’s lack of a right to exclude did not mean he had
no right to expect certain norms of behavior in his apartment
hallway. Yes, other residents and their guests (and even their dogs)
can pass through the hallway. They are not entitled, though, to set
up chairs and have a party in the hallway right outside the door.
Similarly, the fact that a police officer might lawfully walk by and
hear loud voices from inside an apartment does not mean he could
put a stethoscope to the door to listen to all that is happening
inside. Applied to this case, this means that because other residents
might bring their dog though the hallway does not mean the police
can park a sophisticated drug-sniffing dog outside an apartment
door, at least without a warrant.” Id. at 853-54 (citing Jardines , 569
U.S. at 9).
The court concluded that the facts presented constituted a search under the fourth amendment
and that Whitaker’s rights were violated when the officers conducted a warrantless search in the
hallway of his apartment. Id. at 854.
¶ 21

In a similar analysis, our supreme court in People v. Burns , 2016 IL 118973, found that
the police officers’ warrantless use of a sniff dog at the defendant’s apartment door in a locked
apartment building violated the defendant’s fourth amendment right because the locked
apartment building was a constitutionally protected area pursuant to Jardines . In People v.

Bonilla , 2017 IL App (3d) 160457, pet. for leave to appeal allowed , No. 122484 (Sept. 27, 2017),
9
A-34

this court determined that the police officer’s actions constituted a search under the fourth
amendment when he entered the common area hallway of an unlocked apartment building and
conducted a dog sniff of the defendant’s front door. The court reached that conclusion because
the common area hallway constituted curtilage under Jardines and Burns . However, both courts
declined to apply the privacy-based approach because the government in both cases intruded
onto constitutionally protected areas.
¶ 22

The State argues that case law establishes that a guest in a motel room is entitled to a
reduced expectation of privacy. Furthermore, it claims that this court should adopt the ruling in

Roby , 122 F.3d 1120 , as the trial court did in its decision. In Roby , police officers conducted a
dog sniff on the floor of Roby’s hotel room. Id. at 1122. The officers walked the dog down the
hall two or three times, and the dog alerted to Roby’s room. Id. The officers obtained a search
warrant and found cocaine, and Roby was charged with possessing cocaine with intent to
distribute. Id. at 1123. On appeal, Roby challenged the denial of his motion to suppress evidence
obtained during the search of his hotel room because, inter alia , the dog sniff violated his fourth
amendment rights. Id. The Eighth Circuit held that a trained dog’s detection of odor in a common
corridor did not violate the fourth amendment. Id. at 1125. It reasoned that Roby’s expectation of
privacy was limited in a hotel corridor because people can access the area and “[n]either those
who stroll the corridor nor a sniff dog needs a warrant for such a trip.” Id. It further noted that the
fact that the dog was more skilled than a human at detecting odor does not make the dog sniff
illegal. Id. at 1124-25. Furthermore, it stated that evidence of plain smell—similar to evidence in
plain view—may be detected without a warrant. Id. at 1125.
¶ 23

We find that the reasoning in Whitaker and Jardines is more persuasive. Similar to a
sense-enhancing technology, a trained drug-detection dog is a sophisticated sensing device not

10
A-35

available to the general public. See Jardines , 569 U.S. at 14-15 (Kagan, J., concurring, joined by
Ginsburg and Sotomayor, JJ.); Whitaker , 820 F.3d at 853. In this case, the drug-detection dog
was used to explore the details previously unknown in Lindsey’s motel room, which the
Supreme Court established was entitled to constitutional protections. See Stoner , 376 U.S. at
490.
¶ 24

The State argues that Lindsey’s reasonable expectation of privacy is reduced with regard
to the area immediately adjoining the motel room. In Whitaker , the court recognized that the
defendant did not have a complete expectation of privacy in his apartment hallway; however, this
did not mean he had “no reasonable expectation of privacy against persons in the hallway
snooping into his apartment using sensitive devices not available to the general public.”

Whitaker , 820 F.3d at 853. Furthermore, in Burns , 624 F.2d at 100—the case our supreme court
in Eichelberger relies on—the court stated that a motel guest has a justifiable expectation that “if
their conversation is conducted in a manner undetectable outside their room by the electronically
unaided ear, that it would go unintercepted.” Lindsey had a justifiable expectation of privacy
because, until Pena focused the free air sniff on the motel door and seams to detect the odor of
drugs inside Lindsey’s motel room, the smell was undetectable outside of the room. Therefore,
we reject the State’s argument and find that the dog sniff constituted a warrantless search in
violation of Lindsey’s fourth amendment rights.
¶ 25

B. Exclusionary Rule

¶ 26

Next, we address whether Pena’s violation meets the good faith exception to the
exclusionary rule. The State contends that it has met the good faith exception because the officer
had no reason to believe that he was violating Lindsey’s fourth amendment rights. Although the
State acknowledges that the police could not rely on any binding precedent to authorize the dog
11
A-36

sniff or the search warrant, it argues, however, there is no precedent prohibiting the officers’
actions in a hotel hallway and, if anything, the officers would have relied on Roby and similar
cases as guidance.
¶ 27

Generally, courts will not admit evidence obtained in violation of the fourth amendment.

Burns , 2016 IL 118973, ¶ 47. “The fruit-of-the-poisonous-tree doctrine is an outgrowth of the
exclusionary rule providing that the fourth amendment violation is deemed the poisonous tree,
and any evidence obtained by exploiting that violation is subject to suppression as the fruit of
that poisonous tree.” (Internal quotation marks omitted.) Id. The main purpose of the
exclusionary rule is to deter future unlawful police conduct and fulfill the guarantee of the fourth
amendment against unreasonable searches and seizures. Id.
¶ 28

The exclusionary rule is applied only in unusual cases when its application will deter
future fourth amendment violations. Id. ¶ 49 (citing People v. LeFlore , 2015 IL 116799, ¶ 22).
Exclusion of evidence is a court’s last resort, not its first impulse. Id. In considering the good
faith exception to the exclusionary rule applies in any case, the inquiry is “whether a reasonably
well trained officer would have known that the search was illegal in light of all the
circumstances.” (Internal quotation marks omitted.) Id. ¶ 52 (quoting LeFlore , 2015 IL 116799,
¶ 25). “The Supreme Court expanded the good-faith exception to the exclusionary rule to include
good-faith reliance upon binding appellate precedent that specifically authorized a particular
practice but was subsequently overruled.” Id. ¶ 49 (citing Davis v. United States , 564 U.S. 229,
241 (2011)).

¶ 29

Illinois courts have addressed the good faith exception in the context of binding authority.

Bonilla , 2017 IL App (3d) 160457, ¶ 24 (finding that, similar to Burns and Whitaker , United
States Supreme Court and Illinois Appellate Court already ruled that a dog sniff of the front door
12
A-37

of a residence was a fourth amendment search, and therefore, police could not rely on the good
faith exception); Burns , 2016 IL 118973, ¶ 68 (holding that the good faith exception does not
apply because there was no binding precedent authorizing officers’ conduct except for a Fourth
District case prohibiting the conduct); See also Whitaker , 820 F.3d at 854-55 (ruling that “no
appellate decision specifically authorizes the use of a super-sensitive instrument, a drugdetecting dog, by the police outside an apartment door to investigate the inside of the apartment
without a warrant,” and therefore, good faith exception did not apply).
¶ 30

Here, the parties concede, and we agree, that there was no binding appellate precedent in
effect at the time but subsequently overruled that Pena could have relied on to justify the dog
sniff. In fact, there was sufficient binding precedent for him, as a reasonably well-trained officer,
to know the dog sniff required a warrant. The dog sniff in this case occurred on April 27, 2015.
At least four, and arguably five, cases decided prior to this dog sniff establish the proposition
sufficiently that a reasonably well-trained officer should have known that conducting a
warrantless air sniff to detect contents inside a hotel room violates the fourth amendment.

¶ 31

Fifty-one years prior to the search in this case, the United States Supreme Court decided,
in Stoner , 376 U.S. at 490, that guests in hotel rooms, tenants in apartments, and residents in
homes all have the same expectation of privacy in their personal space and are all entitled to the
same constitutional protections against unreasonable search and seizure under the fourth
amendment.

¶ 32

Thirty-three years prior to this search, the Illinois Supreme Court decided Eichelberger ,
91 Ill. 2d 359, recognizing a hotel occupant’s reasonable expectation of privacy in the hotel
room—as had Stoner —but explicitly finding that expectation reduced with regard to the
common area adjoining the room. In reaching that conclusion, our supreme court expressly relied
13
A-38

on two federal appeals court decisions, Burns , 624 F.2d at 100 (“Motel occupants possess the
justifiable expectation that if their conversation is conducted in a manner undetectable outside

their room by the electronically unaided ear , that it would go unintercepted.” (Emphasis added.)),
and Agapito , 620 F.2d at 331 (“Granted that a tenant has standing to protect the room he

occupies , there is nevertheless an element of public or shared property in motel surroundings that
is entirely lacking in the enjoyment of one’s home.” (Emphases added and internal quotation
marks omitted.))
¶ 33

Fourteen years prior to Pena’s search, in Kyllo , the Supreme Court, in a case involving
the use of thermal imaging to detect activity inside a home, decided that the use of a senseenhancing technology not available to the general public to obtain information about activities
inside a home that are not visible to the naked eye and that could not be obtained without
physical intrusion into the home is a search entitled to fourth amendment protection.

¶ 34

Two years prior to the Pena search, the United States Supreme Court decided in Jardines ,
569 U.S. at 9-11, that the use of a trained drug-detection dog to sniff the area outside the
defendant’s private home was a fourth amendment search entitled to fourth amendment
protections. The Jardines majority decided the case on property grounds. However, as three
concurring judges noted, a trained drug-detection dog is also a sense-enhancing detection tool
and its use to detect details of and activities inside a protected space that would not have been
discovered without entering the home violated the defendant’s reasonable expectation of privacy
and would similarly constitute a fourth amendment search under a privacy analysis. Jardines , 569
U.S. at 14-15 (Kagan, J., concurring, joined by Ginsburg and Sotomayor, JJ.). Privacy is the
basis of Lindsey’s argument in this case.

14
A-39

¶ 35

Finally, in People v. Burns , 2015 IL App (4th) 140006, the appellate court opinion,
issued shortly before Pena’s search, found that a dog sniff of the frame around an apartment
door—the same type of sniff as that in this case—was a search under the fourth amendment
entitled to constitutional protection.

¶ 36

In sum, these decisions had clearly established at the time of Pena’s dog’s sniff of the
door to Lindsey’s motel room that the sniff violated his reasonable expectation of privacy in his
motel room and could not have been undertaken without a warrant. The fact that subsequent
decisions of the Illinois Supreme Court and our appellate courts have restated this fact with
additional specificity and clarity does not undermine the fact that the earlier cases were quite
sufficient to have apprised a reasonably well-trained officer that the execution of the Pena dog
sniff without a warrant violated the fourth amendment. The evidence seized as a result of the
sniff should have been suppressed on this basis.

¶ 37

Second, the evidence shows that the dog sniff was not merely “simple, isolated
negligence,” as argued by the State, but was a deliberately executed attempt to find drugs inside
Lindsey’s motel room. See LeFlore , 2015 IL 116799, ¶ 24 (“[w]here the particular circumstances
of a case show that police acted with an objectively reasonable good-faith belief that their
conduct was lawful, or when their conduct involved only simple, isolated negligence, there is no
illicit conduct to deter” (internal quotation marks omitted)). The police were suspicious of
Lindsey’s activities because a confidential informant stated that Lindsey was selling drugs in the
motel and that Lindsey had a criminal history. Subsequently, the police conducted a surveillance
of Lindsey’s motel. After Lindsey was arrested, the police spoke with motel staff to inquire
about Lindsey’s motel room. Pena and his K-9 arrived at the motel and conducted an air sniff of
the door handle and seam of Lindsey’s motel room to detect narcotics. Under these

15
A-40

circumstances, Pena’s conduct, as required by LeFlore , was “sufficiently deliberate that
deterrence is effective and sufficiently culpable that deterrence outweighs the cost of
suppression.” (Internal quotation marks omitted.) Id. We, therefore, hold that suppression of the
evidence was necessary. The denial of defendant’s motion to suppress is reversed, the evidence
is suppressed, his conviction is vacated, and the matter is remanded for further proceedings
consistent with this decision.
¶ 38
¶ 39

II. Court Fines
Because Lindsey’s conviction has been vacated and this case is being remanded, the fines
and fees issues raised by the defendant are moot. However, in the event that a petition for leave
to appeal is filed and granted, we briefly address those issues. Lindsey argues that the trial court
erred when it assessed a $3000 drug assessment and $500 street value fine in its written
judgment because the court stated that it would not impose any fines at sentencing. He asks this
court to vacate the drug assessment and street value fine. The State concedes that both fees
should be vacated.

¶ 40

“When the oral pronouncement of the court and the written order conflict, the oral
pronouncement of the court controls.” People v. Roberson , 401 Ill. App. 3d 758, 774 (2010).
Illinois Supreme Court Rule 615(b) allows a court to modify a written judgment to bring it into
conformity with the oral pronouncement of the trial court. People v D’Angelo , 223 Ill. App. 3d
754, 784 (1992). Questions regarding the appropriateness of fines, fees, and costs imposed by a
sentencing court are reviewed de novo . People v. Ackerman , 2014 IL App (3d) 120585, ¶ 26.

¶ 41

At sentencing, the trial court instructed the clerk to remove Lindsey’s fines. However, the
second judgment showed that the court assessed a $3000 drug assessment and $500 street value

16
A-41

fine. Based on the evidence presented, we vacate the $3000 drug assessment and $500 street
value fine.
¶ 42
¶ 43

III. DNA Analysis Fee
Lindsey also alleges that the trial court erred when it ordered him to submit a DNA
sample and pay a $250 DNA analysis fee although he previously submitted a DNA sample and
paid the fee. He asks this court to vacate the DNA analysis fee. The State concedes that this fee
should be vacated.

¶ 44

Section 5-4-3(a) of the Unified Code of Corrections provides that any person convicted
of felony offense must submit specimens of blood, saliva, or tissue to the Illinois Department of
State Police. 730 ILCS 5/5-4-3(a) (West 2016). Section 5-4-3(j) states that if someone submits
specimens of blood, saliva, or tissue, he must pay a $250 analysis fee. Id . § 5-4-3(j). Our
supreme court has established that section 5-4-3 authorizes the $250 analysis fee only when the
defendant is not currently registered in the DNA database. People v. Marshall , 242 Ill. 2d 285,
303 (2011). Questions regarding the appropriateness of fines, fees, and costs imposed by a
sentencing court are reviewed de novo . Ackerman , 2014 IL App (3d) 120585, ¶ 26.

¶ 45

Lindsey states that he failed to preserve this issue for review. However, the State does not
argue that he waived this issue and concedes to the vacatur of the analysis fee. People v.

Williams , 193 Ill. 2d 306, 347 (2000) (“the State may waive an argument that the defendant
waived an issue by failing to argue waiver in a timely manner”). Based on the Lindsey’s Illinois
State Police DNA form and prior convictions, it is presumed that he was previously ordered to
submit a DNA sample and pay the $250 analysis fee, and therefore, the subsequent order is
improper. See People v. Leach , 2011 IL App (1st) 090339, ¶ 38 (determining that because a

17
A-42

convicted felon is required to submit a DNA sample, it is presumed that the trial court imposed
the requirement on a prior conviction). Therefore, we vacate the DNA analysis fee.
¶ 46

CONCLUSION

¶ 47

The judgment of the circuit court of Rock Island County is reversed and remanded.

¶ 48

Reversed and remanded; fines and fees vacated.

¶ 49

JUSTICE SCHMIDT, concurring in part and dissenting in part:

¶ 50

Even assuming that the majority correctly determined that the dog sniff in this case
violated the fourth amendment (it did not), the good faith exception to the exclusionary rule
applies.

¶ 51

Up to this point, courts have determined that canine sniffs of residential and apartment
doors constitute fourth amendment searches. See Jardines , 569 U.S. 1; Burns , 2016 IL 118973;

Bonilla , 2017 IL App (3d) 160457; Whitaker , 820 F.3d 849. No similar holding has been made
regarding canine sniffs of hotel room doors. In fact, until now the relevant authority indicates
that canine sniffs in the common corridors of hotels are not fourth amendment searches because
a hotel tenant possesses a reduced expectation of privacy. See Roby , 122 F.3d 1120 (8th Cir.
1997); Eichelberger , 91 Ill. 2d 359; Agapito , 620 F.2d 324. Based on the facts of this case and
the state of the law, no one can reasonably argue that the officers acted in bad faith. Accordingly,
I would find the good faith exception to the exclusionary rule applies.
¶ 52

With respect to the fines and fees issues, I agree that we should accept the State’s
concession and vacate them. Otherwise, I would affirm.

18
A-43

